TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2005 Statutory Audit of
                        Compliance With Legal Guidelines
                          Restricting the Use of Records
                            of Tax Enforcement Results



                                         September 2005

                              Reference Number: 2005-40-157




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 21, 2005


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2005 Statutory Audit of Compliance
                               With Legal Guidelines Restricting the Use of Records of Tax
                               Enforcement Results (Audit # 200540023)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines set forth in IRS Restructuring and Reform Act of 1998
 (RRA 98) Section 1204.1

 Synopsis
 RRA 98 Section 1204 (a) prohibits the IRS from using any records of tax enforcement results
 (ROTER) to evaluate employees or to impose or suggest production quotas or goals.
 Section 1204 (b) requires employees to be evaluated using the fair and equitable treatment of
 taxpayers as a performance standard. Section 1204 (c) requires each appropriate supervisor to
 certify quarterly whether tax enforcement results were used in a prohibited manner. The
 Treasury Inspector General for Tax Administration is required under Internal Revenue Code
 Section 7803(d)(1) (2000) to annually evaluate the IRS’ compliance with the provisions of
 RRA 98 Section 1204.
 Managers in the IRS Small Business/Self-Employed (SB/SE) and Wage and Investment (W&I)
 Divisions had not used ROTERs or production quotas or goals to evaluate manager performance
 for the Section 1204 first-line managers we statistically sampled. These managers had been



 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                    Fiscal Year 2005 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results


evaluated using the updated evaluation form2 that included an assessment of the employees’
performance on the fair and equitable treatment of taxpayers.
In addition, the SB/SE and W&I Division first-line managers identified as Section 1204
managers were appropriately certifying to their immediate supervisors that they did not use
ROTERs to evaluate Section 1204 employees.
In October 2004, the IRS discontinued the requirement for executives to obtain waivers for
activities that do not involve Section 1204 work and for individual managers that were not
required to participate in the Section 1204 self-certification process. This eliminated the control
the IRS had established to ensure Section 1204 managers were accurately identified and
monitored. The scope of the Independent Review of Section 1204 managers’ performance
documentation should be expanded to include an assessment as to whether the managers
designated as non-Section 1204 managers were accurately classified.

Recommendation
The Chief Financial Officer (CFO) should establish a control to ensure managers are accurately
designated as Section 1204 managers or non-Section 1204 managers. For example, the CFO
could expand the scope of the Independent Review to include an assessment of the accuracy of
managers designated as non-Section 1204 managers.

Response
The IRS agreed with our recommendation and the CFO will expand the scope of the annual
Independent Review process to include a review of a random sample of non-Section 1204
managers in an effort to validate the accuracy of that designation. Management’s complete
response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




2
    IRS Performance Management System Manager Performance Agreement (Form 12450-A (Rev. 10-2000)).




                                                                                                      2
                                         Fiscal Year 2005 Statutory Audit of
                                    Compliance With Legal Guidelines Restricting
                                   the Use of Records of Tax Enforcement Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Small Business/Self-Employed Division and Wage and Investment
          Division Managers Had Appropriately Not Used Records of Tax
          Enforcement Results .....................................................................................Page 5
          A Control Is Needed to Ensure Section 1204 Managers Are
          Properly Identified ........................................................................................Page 5
                    Recommendation 1:..........................................................Page 8

          The Small Business/Self-Employed Division and the Wage and
          Investment Division First-Line Managers Appropriately Completed
          Their Self-Certifications ...............................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
                                     Fiscal Year 2005 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results




                                             Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 Among many other requirements contained in the law,
Section 1204 restricts the use of enforcement statistics. Specifically, RRA 98 Section 1204 (a)
prohibits the IRS from using any record of tax enforcement results (ROTER) to evaluate
employees or to impose or suggest production quotas or goals.
The IRS defines ROTERs as data, statistics, compilations of information, or other numerical or
quantitative recordation of the tax enforcement results
reached in one or more cases. A ROTER does not
include the tax enforcement results of an individual case     ROTERs are data, statistics,
when used to determine if an employee exercised              compilations of information, or
appropriate judgment in pursuing enforcement of the tax      other numerical or quantitative
                                                                 recordation of the tax
laws based upon a review of the employee’s work on           enforcement results reached in
that individual case. Examples of ROTERs include the               one or more cases.
amount of dollars collected or assessed, the number of
fraud referrals, and the number of seizures conducted.
RRA 98 Section 1204 (b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS requires employees to administer the
tax laws fairly and equitably; protect all taxpayers’ rights; and treat each taxpayer ethically with
honesty, integrity, and respect. This provision of the law was enacted to provide assurance that
employee performance is focused on providing quality service to taxpayers instead of achieving
enforcement results.
RRA 98 Section 1204 (c) requires each appropriate supervisor to perform a self-certification on a
quarterly basis. In the self-certifications, they attest as to whether they used ROTERs in a
prohibited manner. The IRS defines an appropriate supervisor as the highest-ranking executive
in a distinct organizational unit that supervises directly or indirectly one or more Section 1204
employees.2 IRS procedures require that, beginning with first-line managers of Section 1204
employees, each level of management self-certify that they have not used ROTERs in a manner
prohibited by RRA 98 Section 1204 (a). The appropriate supervisor is to prepare a consolidated
office certification covering the entire organizational unit.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement employee (Section 1204 employee) is one who exercises judgment in recommending or
determining whether or how the IRS should pursue enforcement of tax law.
                                                                                                              Page 1
                                Fiscal Year 2005 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



The Assistance and Review Unit of the office of the Chief Financial Officer (CFO) coordinates
the process the IRS uses to ensure compliance with Section 1204 requirements. Specifically, it
provides overall program direction, coordination, and guidance to the business units and
functions responsible for identifying managers of Section 1204 employees.
The IRS divisions, including the Small Business/Self-Employed (SB/SE) Division and the
Wage and Investment (W&I) Division, are responsible for Section 1204 program implementation
in their respective areas. We selected these two divisions for review because we believed they
had the largest number of employees with Section 1204 duties. The Section 1204 Program
Managers and Section 1204 Coordinators in each division provide guidance to managers
regarding Section 1204 issues, support the Independent Review process, and manage the
certification process.
To implement the certification process, IRS procedures require appropriate supervisors to
annually identify and list all managers who supervise a Section 1204 employee or provide
guidance or direction for Section 1204 activities. These lists of Section 1204 managers must be
updated quarterly to ensure all managers of Section 1204 employees self-certify.
To compile these lists, the SB/SE and W&I Division Section 1204 Program Managers obtain
quarterly personnel listings of all managers and cascade them to their respective Section 1204
Coordinators or staff assistants. The Section 1204 Coordinators are responsible for updating the
list of all managers and ensuring the managers are properly designated as Section 1204
managers. These Section 1204 Coordinators use information from the last quarterly list and their
knowledge of the work activity to identify managers who supervise a Section 1204 employee or
provide guidance or direction for Section 1204 activities. The IRS did not provide specific
guidelines on how this process should be completed.
On an annual basis, the Assistance and Review Unit conducts an Independent Review to monitor
the accuracy of the IRS’ quarterly certification process for the previous fiscal year. An
Independent Review team selects samples of Section 1204 managers at all organizational levels
to review their documentation of employees’ reviews.
As shown in Figure 1, as of October 1, 2004, approximately 63 percent (1,857 of 2,964) of the
first-line managers in the SB/SE Division were designated as Section 1204 managers who
supervise a Section 1204 employee or provide guidance or direction for Section 1204 activities.
In contrast, approximately 28 percent (485 of 1,724) of the W&I Division first-line managers
were designated as Section 1204 managers.




                                                                                          Page 2
                                      Fiscal Year 2005 Statutory Audit of
                                 Compliance With Legal Guidelines Restricting
                                the Use of Records of Tax Enforcement Results




          Figure 1: Percentage of Section 1204 Managers, as of October 1, 2004




        3000

        2500
                                    1,857
                                    (63%)
        2000
                                                                            485
        1500                                                               (28%)


        1000                                                               1,239
                                    1,107
                                    (37%)                                  (72%)
          500

             0
                               SB/SE                                    W&I

                            Number of Section 1204 First-Line Managers
                            Number of Non-Section 1204 First-Line Managers

           Source: IRS HR Connect3 and Division Quarterly Listings of Section 1204 Managers, as of
           October 1, 2004.

Internal Revenue Code Section 7803(d)(1) (2000) requires the Treasury Inspector General for
Tax Administration to determine annually whether the IRS is in compliance with restrictions on
the use of enforcement statistics. We have previously performed six mandatory reviews of the
IRS’ use of enforcement statistics in employee evaluations.
This review was performed at the IRS National Headquarters in Washington, D.C., in the offices
of the CFO, the Chief Human Capital Officer, and the SB/SE Division Headquarters, and in the
W&I Division Headquarters in Atlanta, Georgia, during the period February through July 2005.

3
    HR Connect is the Department of the Treasury’s primary human resources system.
                                                                                                     Page 3
                               Fiscal Year 2005 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                                    Fiscal Year 2005 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results




                                    Results of Review

Small Business/Self-Employed Division and Wage and Investment
Division Managers Had Appropriately Not Used Records of Tax
Enforcement Results

SB/SE Division and W&I Division managers effectively implemented the provisions of RRA 98
Section 1204 in evaluating Section 1204 first-line managers. Managers had not used ROTERs or
production quotas or goals to evaluate manager performance for the 82 SB/SE Division and
72 W&I Division Section 1204 first-line managers we statistically sampled. These managers had
been evaluated using the updated evaluation form4 that included an assessment of the employees’
performance on the fair and equitable treatment of taxpayers. Based on our statistically valid
sample, we are 95 percent confident there were no inappropriate uses of ROTERs in the
populations.
Managers designated as Section 1204 managers are required to self-certify on a quarterly basis
that they have not used ROTERs to evaluate their employees. This serves as a frequent reminder
that ROTERs should not be used when evaluating enforcement employees. In addition, the
Assistance and Review Unit conducts its annual Independent Review of Section 1204 managers’
evaluations in randomly selected locations. This review team randomly samples managers at
these locations to determine if Section 1204 managers are in compliance with Section 1204
regarding the use of ROTERs.
By not inappropriately using ROTERs or production goals and quotas, the IRS protects the rights
of taxpayers by ensuring employees are working toward collecting the correct amount of tax as
opposed to fulfilling enforcement statistic quotas. This also provides the IRS both a work
environment that protects taxpayer rights and a fair employee evaluation system.


A Control Is Needed to Ensure Section 1204 Managers Are Properly
Identified

The SB/SE and W&I Divisions are required to evaluate personnel listings annually to identify
managers designated as Section 1204 managers, to ensure they participate in the
self-certification process. Figure 2 presents a flowchart of this process.

4
    IRS Performance Management System Manager Performance Agreement (Form 12450-A (Rev. 10-2000)).
                                                                                                     Page 5
                                 Fiscal Year 2005 Statutory Audit of
                            Compliance With Legal Guidelines Restricting
                           the Use of Records of Tax Enforcement Results




               Figure 2: Process for Identifying Section 1204 Managers
                             (Repeats Each Fiscal Year)




              Source: Discussions with SB/SE Division and W&I Division management
              and personnel.

The listings should then be updated on a quarterly basis to ensure all managers are properly
designated as Section 1204 managers or non-Section 1204 managers.
Prior to October 2004, the IRS used waivers as a control to ensure Section 1204 managers were
appropriately identified. The IRS required waivers to be prepared annually for organizations
with no Section 1204 work and for managers that were identified as non-Section 1204 managers.
This process required executives who determined there was no Section 1204 work performed in
their areas to request a waiver from Section 1204 certification from the appropriate supervisor.
In addition, executives could also request waivers from the appropriate supervisor for individual
managers in their organizations who were non-Section 1204 managers.


                                                                                           Page 6
                                     Fiscal Year 2005 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results



However, the IRS no longer requires executives to obtain waivers.5 According to an
October 27, 2004, memorandum from the CFO:
          The waiver process was initially implemented to ensure all Section 1204 managers
          required to conduct quarterly self-certifications were identified and monitored.
          Subsequently, the Service [IRS] has made considerable progress in identifying those
          managers governed by Section 1204. Because [the IRS maintains] a current and
          accurate list of all Section 1204 managers that is updated and validated quarterly, the
          Office of the Chief Financial Officer determined that the waiver process is redundant,
          and therefore, unnecessary.
Removing the waiver process eliminated the control that had been established to ensure all
Section 1204 managers required to conduct quarterly self-certifications were accurately
identified and monitored. If Section 1204 managers are not properly identified, the IRS may not
be accurately self-certifying to the Commissioner that they have not used ROTERs improperly.
Although we believe the waiver process was a very resource-intensive and time-consuming
control, we believe there should be some control established to ensure 1) managers are
accurately designated as Section 1204 managers or non-Section 1204 managers, 2) the IRS is
maintaining a current and accurate list of all Section 1204 managers, and 3) the list is updated
and validated quarterly. This would ensure the IRS identifies changes in managers and work
area activities that involve Section 1204 work.
The Assistance and Review Unit conducts an annual Independent Review of performance
documentation for managers designated as Section 1204 managers. We believe the current scope
of the Independent Review could be expanded to include an assessment as to whether managers
designated as non-Section 1204 managers were accurately classified.
The designation as a non-Section 1204 manager was accurate for 29 of the 47 SB/SE Division
and 46 of the 47 W&I Division first-line managers we statistically sampled. In the remaining
19 instances (18 in the SB/SE Division and 1 in the W&I Division), managers that had not been
designated as Section 1204 managers had actually prepared a self-certification and/or their
managers confirmed that they were performing Section 1204 duties. The 18 SB/SE Division
managers were transferred from the SB/SE Division to the W&I Division as of October 1, 2004,
and were inadvertently omitted from the SB/SE Division Section 1204 manager listing.




5
    Memorandum from the CFO, Interim Guidance for Section 1204 Waiver Process, dated October 27, 2004.
                                                                                                         Page 7
                                Fiscal Year 2005 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results




Recommendation
Recommendation 1: The CFO should establish a control to ensure managers are accurately
designated as Section 1204 managers or non-Section 1204 managers. For example, the CFO
could expand the scope of the Independent Review to include an assessment of the accuracy of
managers designated as non-Section 1204 managers.
       Management’s Response: The IRS agreed with our recommendation and the CFO
       will expand the scope of the annual Independent Review process to include a review of a
       random sample of non-Section 1204 managers in an effort to validate the accuracy of that
       designation.


The Small Business/Self-Employed Division and the Wage and
Investment Division First-Line Managers Appropriately Completed
Their Self-Certifications

The SB/SE and W&I Division first-line managers identified as Section 1204 managers were
certifying to their immediate supervisors that they did not use ROTERs to evaluate Section 1204
employees. The 82 SB/SE Division and 72 W&I Division first-line managers we statistically
sampled each appropriately completed and forwarded their self-certifications to the next level of
management. Based on our statistically valid sample, we are 95 percent confident first-line
managers in the populations appropriately completed and forwarded their self-certifications.
RRA 98 Section 1204 requires specific managers to certify quarterly in writing to the IRS
Commissioner as to whether ROTERs are used in a prohibited manner (i.e., to evaluate their
employees or to impose or suggest production quotas or goals). To do this, the IRS requires all
managers who evaluate Section 1204 employees to certify to their immediate supervisors that
they have not used ROTERs to evaluate their employees.
The SB/SE and W&I Division Section 1204 Program Managers and Section 1204 Coordinators
monitor the quarterly certification process throughout their respective organizations. The
Program Managers’ and Section 1204 Coordinators’ duties include providing guidance to
managers regarding Section 1204 issues, supporting the Independent Review process, and
managing the certification process.
The IRS has effectively implemented Section 1204 requirements. As a result of ensuring
ROTERs or production goals and quotas are not used to evaluate first-line managers, the IRS is
protecting the rights of taxpayers by ensuring employees are working toward collecting the
correct amount of tax as opposed to fulfilling enforcement statistic quotas.


                                                                                           Page 8
                                     Fiscal Year 2005 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the Internal Revenue Service (IRS)
complied with legal guidelines set forth in IRS Restructuring and Reform Act of 1998 (RRA 98)1
Section 1204, which prohibit the IRS from using any record of tax enforcement results (ROTER)
to evaluate employees or to impose or suggest production quotas or goals. To accomplish this
objective, we:
I.      Determined if the Small Business/Self-Employed (SB/SE) Division and the Wage and
        Investment (W&I) Division complied with provisions of RRA 98 Sections 1204 (a) and
        (b) when evaluating first-line Section 1204 managers’ performance.
        A. Identified procedures used to ensure compliance with provisions of RRA 98
           Sections 1204 (a) and (b) by interviewing IRS management and reviewing the
           Internal Revenue Manual, IRS memoranda, and the IRS Section 1204 Intranet
           web site.
        B. Obtained a list of 2,469 SB/SE Division and 725 W&I Division Section 1204
           managers compiled by the SB/SE and W&I Division Section 1204 Program
           Managers for the fourth quarter of Fiscal Year 2004.
        C. Identified 1,857 SB/SE Division and 485 W&I Division Section 1204 first-line
           managers using IRS data and the listings obtained in Step I.B.
        D. Determined our sample sizes and selected a 1-sided random sample of 82 SB/SE
           Division and 72 W&I Division first-line Section 1204 managers from the populations
           of Section 1204 first-line managers using a desired confidence level of 95 percent, an
           expected error rate of 2 percent, and a precision level of ± 2.50 percent. A statistical
           sample was taken because we wanted to estimate the numbers of managers in the
           populations for which ROTERs were documented when evaluating the managers’
           performance (if we identified any ROTERs).
        E. Requested copies of the managers’ Fiscal Year 2004 evaluations, mid-year reviews,
           commitments, and award documents from the SB/SE Division Liaison and the
           W&I Division Section 1204 Program Manager.
        F. Reviewed the documents in Step I.E. to determine if ROTERs were documented
           when evaluating the managers. We also determined if managers were using the IRS

1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).

                                                                                                             Page 9
                                      Fiscal Year 2005 Statutory Audit of
                                 Compliance With Legal Guidelines Restricting
                                the Use of Records of Tax Enforcement Results



               Performance Management System Manager Performance Agreement (Form 12450-A
               (Rev. 10-2000)) for their annual evaluations of first-line Section 1204 managers.
II.        Determined if controls were adequate in the SB/SE Division and the W&I Division to
           appropriately identify first-line Section 1204 managers subject to RRA 98 Section 1204.
           A. Obtained the SB/SE Division and W&I Division listings of all managers as of
              October 1, 2004, from the Agency-Wide Shared Services organization.
           B. Compared the listing in Step II.A. to the listings of SB/SE Division and
              W&I Division first-line Section 1204 managers from Step I.C. and identified
              1,107 SB/SE Division and 1,239 W&I Division first-line managers not classified as
              Section 1204 managers.
           C. Determined our sample sizes and selected a random sample of 47 SB/SE Division and
              47 W&I Division managers identified in Step I.B. from the populations of first-line
              managers not classified as Section 1204 managers using a desired confidence level of
              95 percent, an expected error rate of 2 percent, and a precision level of ± 3.30 percent.
              A statistical sample was taken because we wanted to estimate the numbers of
              managers from the populations of managers not classified as Section 1204 that should
              have been classified as Section 1204 managers (if there were significant numbers of
              misclassifications).
           D. Researched HR Connect2 to identify the position and location of each manager in our
              samples (Step II.C.) and obtained position descriptions, critical job elements,
              evaluations, and job commitments for each to determine if the managers are involved
              in enforcement activities.
           E. For those in our sample for which we were unable to determine the nature of the
              manager’s assignments, contacted the appropriate Liaison/Section 1204 Program
              Manager/Section 1204 Coordinator for an explanation.
III.       Determined if the SB/SE and W&I Division first-line managers complied with RRA 98
           Section 1204 by completing their required self-certification documents assessing whether
           ROTERs were being used in a prohibited manner.
           A. Identified the procedures used to ensure compliance with the provisions of
              RRA 98 Section 1204 (c) by interviewing IRS management, obtaining and reviewing
              any written documentation and guidance for achieving compliance, and reviewing
              other sources (such as the Section 1204 web site and previous audit work).


2
    HR Connect is the Department of the Treasury’s primary human resources system.




                                                                                               Page 10
                        Fiscal Year 2005 Statutory Audit of
                   Compliance With Legal Guidelines Restricting
                  the Use of Records of Tax Enforcement Results



B. Used the statistical sample of first-line managers in Step I.D. and requested copies of
   the self-certifications.
C. Determined if first-line managers completed the quarterly self-certifications per the
   IRS guidelines and procedures.




                                                                                   Page 11
                               Fiscal Year 2005 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James O’Hara, Audit Manager
Kenneth L. Carlson, Jr., Lead Auditor
Tanya Boone, Senior Auditor
Cindy J. Harris, Senior Auditor
Sharon Summers, Senior Auditor
David Lowe, Auditor




                                                                                         Page 12
                              Fiscal Year 2005 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Assistance and Review OS:CFO:AR
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
   SE:S:CLD
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief Financial Officer OS:CFO
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 13
               Fiscal Year 2005 Statutory Audit of
          Compliance With Legal Guidelines Restricting
         the Use of Records of Tax Enforcement Results



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 14
      Fiscal Year 2005 Statutory Audit of
 Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results




                                                Page 15
